No. __________________

IN THE
SUPREME COURT OF THE UNITED STATES

DAVID STILES, JR. – PETITIONER
vs.
STATE OF TEXAS – RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO THE
COURT OF APPEALS OF TEXAS, FOURTEENTH DISTRICT, HOUSTON

APPENDIX

Michael C. Gross,
Counsel of Record
1524 North Alamo Street
San Antonio, Texas 78215
(210) 354-1919
(210) 354-1920 Fax

TABLE OF CONTENTS
APPENDIX
Decision of Court of Appeals of Texas, Fourteenth District, Houston. . . . . . . . . A
Judgment of 424th Judicial District Court, Burnet County, Texas. . . . . . . . . . . . B
Decision of Texas Court of Criminal Appeals denying review. . . . . . . . . . . . . . . C

APPENDIX A

Firefox

1 of 6

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1...

Stiles v. State, 596 S.W.3d 361
Copy Citation
Court of Appeals of Texas, Fourteenth District, Houston
December 31, 2019, Memorandum Opinion Filed
NO. 14-18-00619-CR
Reporter
596 S.W.3d 361 * | 2019 Tex. App. LEXIS 11229 ** | 2019 WL 7371948

DAVID STILES, JR., Appellant v. THE STATE OF TEXAS, Appellee

Subsequent History: Petition for discretionary review refused by In re Stiles, 2020 Tex. Crim. App. LEXIS
575 (Tex. Crim. App., Aug. 19, 2020)

Prior History: [**1] On Appeal from the 424th District Court, Burnet County, Texas. Trial Court Cause No.
46487.

Core Terms
speedy, arrest, indictment, assault, weighs, sexual, acquiesced, resets, lab

Case Summary

Overview
HOLDINGS: [1]-The delay of more than four years and five months between defendant's arrest and trial
did not violate his Sixth Amendment right to a speedy trial because the period of eight months between
indictment and trial was due to the agreed resets. Also, the State moved for a continuance due to
witness unavailability. Furthermore, he did not attempt to get his case to trial in a speedy manner before
seeking dismissal since after indictment, he agreed to multiple resets that further delayed trial. Finally,
though the delay was considered presumptively prejudicial to the defense, he failed to demonstrate any
APPENDIX A

10/30/2020, 4:07 PM

Firefox

2 of 6

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1...

prejudice since he made no argument that the missing witness was a material fact witness or that the
missing witness could offer testimony that was in any way different from those of the witnesses that
would testify during trial.

Outcome
Judgment affirmed.

LexisNexis® Headnotes

Judges: Panel consists of Chief Justice Frost

and Justices Wise

and Hassan

.

Opinion by: Ken Wise

Opinion

[*365] MEMORANDUM OPINION
A jury found appellant, David Stiles, Jr., guilty of sexual assault. In a single issue, appellant contends his Sixth
Amendment right to a speedy trial was violated. We affirm.

I. RIGHT TO A SPEEDY TRIAL
In his sole issue, appellant contends that a delay of more than four years and five months between his arrest
and trial violated his Sixth Amendment right to a speedy trial.

A. Legal Principles
HN1 "The Sixth Amendment to the United States Constitution, made applicable through the Fourteenth
Amendment, guarantees a speedy trial to an accused." Gonzales v. State, 435 S.W.3d 801, 808 (Tex. Crim.
App. 2014). A court should consider the four Barker factors in addressing a speedy-trial claim: (1) the length
of delay, (2) the State's reason for delay, (3) the defendant's assertion of his right to a speedy trial, and (4)
prejudice to the defendant because of the length of the delay. See Barker v. Wingo, 407 U.S. 514, 530, 92 S.
Ct. 2182, 33 L. Ed. 2d 101 (1972); see also Balderas v. State, 517 S.W.3d 756, 767 (Tex. Crim. App. 2016).
To trigger a full Barker analysis, a defendant must first make a threshold showing that the interval between
accusation and trial is "presumptively prejudicial." Balderas, 517 S.W.3d at 767. Generally, courts deem
delays approaching one year as unreasonable enough to trigger further inquiry. Dragoo v. State, 96 S.W.3d
308, 314 (Tex. Crim. App. 2003).
HN2 We give almost [**2] total deference to the trial court's historical fact findings that are supported by
the record and draw reasonable inferences from those facts necessary to support the trial court's findings.
Balderas, 517 S.W.3d at 767-68. When a defendant loses a speedy trial claim in the trial court, we presume
that the trial judge resolved any disputed fact issues in the State's favor, and we defer to the implied findings
of fact that the record supports. Cantu v. State, 253 S.W.3d 273, 282 (Tex. Crim. App. 2008). We will not
consider any record evidence that was not before the trial court when it made its ruling. Balderas, 517 S.W.3d
APPENDIX A

10/30/2020, 4:07 PM

Firefox

3 of 6

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1...
at 768. Review of the Barker factors involves both fact determinations and legal conclusions, but, the
balancing test is a purely legal question that we review de novo. Id.

B. Background
Appellant was charged with a sexual assault that occurred in October 2011. Appellant filed a motion to set
aside the indictment for violating his constitutional right to a speedy trial on May 7, 2018. Trial was set for,
and occurred on, May 21, 2018. Prior to trial, the trial court conducted a hearing on appellant's motion.
The case investigator from the Burnet County Sheriff's Department testified regarding the investigation,
timeline, and reason for the delay in bringing the case to trial. On October [**3] 22, 2011, the complainant
reported that she had been sexually assaulted by appellant. The sexual assault occurred while complainant,
complainant's boyfriend, appellant, appellant's father, appellant's two brothers, and a few other individuals
were visiting a lake house in Burnet County for the weekend. Shortly after the assault was reported, the
investigator interviewed the complainant and her boyfriend, and attempted to contact appellant [*366] and
his father. The investigator managed to speak briefly with both appellant and appellant's father. Neither
appellant nor his father returned any of the investigator's numerous phone calls or messages. The investigator
testified that she was aware that appellant worked for the family business, located approximately seventy
miles south of Burnet County. She did not go to appellant's location to attempt to take his statement or
otherwise interview him.
Appellant was arrested for the sexual assault in December 2013. Ten months later, in October 2014, the
investigator obtained a search warrant to obtain appellant's DNA sample. The investigator testified that the
delay between the arrest and the search warrant was because she was waiting for appellant [**4] to let her
know that he had retained an attorney. Through counsel, appellant agreed to meet with the investigator to
allow the search warrant to be executed. A few days after executing the search warrant, the investigator
submitted appellant's DNA swab to the lab for analysis. Two years later, in November 2016, the lab
transmitted the results to the investigator. In April 2017, nearly five months after the lab issued its analysis
and more than three years after his arrest, appellant was indicted for the sexual assault.
At the hearing, appellant's father testified regarding who was present at the lake house when the sexual
assault occurred and whether those individuals were present to provide testimony at trial. He indicated that
one person who had been present at the lake house was unable to be located. He admitted that he believed
that all the other individuals that had been at the lake house were present to testify. Appellant's father
testified that he would have been able to give a more detailed explanation and recollection of events had he
been questioned sooner and that he expected the other witnesses would have the same issue.
The docket sheet indicates that an arraignment hearing [**5] was set for May 2017 and that appellant
waived his right to that hearing by motion. Between June and December 2017, there were four status
hearings which were all reset by agreement. Trial was scheduled for March 5, 2018, but due to the
unavailability of a State's witness, the trial setting was continued until May 21, 2018. Appellant filed a motion
to set aside the indictment for failure to afford his constitutional right to a speedy trial on May 7, 2018.
After having "considered the motion and weighed the Barker factors" the trial court denied the motion and
proceeded to trial on the same day. The trial court did not issue any order, fact findings, or legal conclusions.

C. Analysis

1. Length of Delay
HN3 "In determining whether a speedy trial has been denied, the length of delay is measured from the time
the defendant was accused." McCarty v. State, 498 S.W.2d 212, 214 (Tex. Crim. App. 1973). The State
concedes that the length of delay in this case triggers further inquiry and analysis of the Barker factors. See
Balderas, 517 S.W.3d at 767. The delay of four years and five months between arrest and trial stretched far
beyond the minimum needed to trigger the inquiry. See Dragoo, 96 S.W.3d at 314. As a result, this factor
weighs heavily in favor of finding a violation of the speedy trial right. See [**6] id.

2. Reason for Delay
APPENDIX A

10/30/2020, 4:07 PM

Firefox

4 of 6

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1...
HN4 The State has the burden to justify the delay. Cantu, 253 S.W.3d at 280. "A more neutral reason such
as negligence [*367] or overcrowded courts should be weighted less heavily but nevertheless should be
considered since the ultimate responsibility must rest with the government rather than with the defendant."
Barker, 407 U.S. at 531. A valid reason, such as a missing witness or good faith plea negotiations, should
serve to justify appropriate delay. See id.; State v. Munoz, 991 S.W.2d 818, 824 (Tex. Crim. App. 1999).
When the State fails to establish a reason for the delay, we may presume neither a deliberate attempt to
prejudice the defense nor a valid reason for the delay. Dragoo, 96 S.W.3d at 314; State v. Wei, 447 S.W.3d
549, 554 (Tex. App.—Houston [14th Dist.] 2014, pet. ref'd). The State argues that the evidence shows that
the State was not willfully delaying trial, but instead was merely negligent in preparing and taking the case to
trial. As a result, the State argues this factor should not weigh heavily against it.
One of the largest delays in moving this case to trial was the two-year period during which the lab analysis on
the DNA samples was pending. The investigator testified that without the lab analysis, there was no physical
evidence linking appellant to the sexual assault and the case would otherwise be solely based on the
complainant's testimony against appellant. [**7] While this circumstance might be an adequate justification
for some of the delay, it does not take into account the delay between the arrest and obtaining a search
warrant, and from indictment to trial. Some of the delay—a period of eight months between indictment and
trial—was due to agreed resets. The State also moved for a continuance in March 2018, due to witness
unavailability. Thus, while there was a significant delay, the portion to which appellant agreed, as well as a
continuance due to witness unavailability is considered justified. See Barker, 407 U.S. at 531; Munoz, 991
S.W.2d at 824. The State did not offer any other reason to justify the other delays. HN5 Absent a reason for
the delay, a court may presume neither a deliberate attempt on the part of the State to prejudice the defense,
nor a valid reason for the delay. See Dragoo, 96 S.W.3d at 314. This factor weighs against the State, but not
heavily. See id.

3. Assertion of the Right
HN6 Although a motion for a speedy trial cannot be filed until formal charges are made, the right to one
can be asserted in other ways. Cantu, 253 S.W.3d at 283. "Invocation of the speedy trial provision . . . need
not await indictment, information, or other formal charge." United States v. Marion, 404 U.S. 307, 321, 92 S.
Ct. 455, 30 L. Ed. 2d 468 (1971); see also Dillingham v. United States, 423 U.S. 64, 65, 96 S. Ct. 303, 46 L.
Ed. 2d 205 (1975) (per curiam). Where a defendant does not ask for a speedy [**8] trial, and instead only
asks for dismissal, it is incumbent upon the defendant to show some attempt to get the case into court so that
trial could occur in a speedy manner. Cantu, 253 S.W.3d at 284. An accused who has been arrested but not
formally charged has a choice:
[H]e can wait until he is charged, then file a motion for a speedy trial, and, if this request is not
honored, he can then file a motion to dismiss because he diligently sought what he was entitled
to—a speedy trial. Or, he can wait until he is charged and simply file a motion to dismiss if he
can show that he diligently tried to move the case into court before formal charges were filed.
Id. at 284-85. In Cantu, the defendant never sought or requested a speedy trial, only an outright dismissal
and tried to prove that he acted on the desire for a speedy resolution before he was charged. Id. at 285.
Here, like in Cantu, there was [*368] no showing or evidence that appellant ever sought or requested a
speedy trial. Appellant sought an outright dismissal without attempting to show that he acted on the desire for
a speedy resolution. Instead of asserting his right to a speedy trial after being indicted, appellant agreed to
resets of the trial for eight months. Nothing in the [**9] record reveals that appellant asserted his right to a
speedy trial prior to his motion to dismiss filed just before trial. See Barker, 407 U.S. at 532 (emphasizing
that HN7

a defendant's failure to assert his right to a speedy trial "will make it more difficult for a defendant

to prove that he was denied a speedy trial"); Munoz, 991 S.W.2d at 826 (concluding inaction dispositive of the
"assertion of the right" Barker factor where nothing moved for or filed prior to defendant's motion to dismiss
the indictment expressly reflected an assertion of defendant's speedy trial right).
Appellant argues that he timely asserted his right to a speedy trial through motion, citing Phillips v. State in
support. 650 S.W.2d 396 (Tex. Crim. App. 1983). In Phillips, the defendant was unaware that he had been
indicted for over a year. Id. at 400. Once the defendant was notified of the indictment, the defendant then
delayed asserting his right to a speedy trial for another four months and filed his motion to dismiss only seven
days prior to trial. Id. at 401. Instead of requesting a speedy trial, the defendant sought dismissal. Id.
However, the record did not reflect when the defendant had retained counsel, what investigation counsel
undertook of the matter, and the length of time the investigation took. Id. [**10] The record also revealed
APPENDIX A

10/30/2020, 4:07 PM

Firefox

5 of 6

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1...
that a co-defendant had died in the interim, which the defendant asserted caused him prejudice. Id.
In this case, unlike in Phillips, appellant cannot assert that he did not know of the allegations asserted against
him. The case investigator testified that she had called appellant and his father at least fourteen times to
discuss the allegations. Appellant retained counsel in December 2013, shortly after his arrest. Even assuming
a lengthy investigation by counsel, there is nothing in the record to reflect that appellant attempted to get his
case to trial in a speedy manner before seeking dismissal. Between appellant's arrest and trial setting, a
period of more than four years, there is no indication that appellant took any action to assert his right to a
speedy trial despite being represented by counsel during that entire period. Instead, after indictment,
appellant agreed to multiple resets that further delayed trial. Trial occurred within two weeks of appellant
filing his speedy trial motion. There is also no assertion that a key fact witness died or was otherwise
unavailable due to the lapse of time between arrest and trial. HN8 The longer the delay is, the [**11]
more heavily the defendant's inaction weighs against him. See Dragoo, 96 S.W.3d at 314.
The absence of any evidence to show that appellant attempted to get his case to trial in a speedy fashion and
that his first motion sought dismissal weighs heavily against his claim that he truly sought a speedy trial. See
Cantu, 253 S.W.3d at 284 ("[F]ailure to diligently and vigorously seek a rapid resolution is entitled to strong
evidentiary weight." (quotation omitted)); Dragoo 96 S.W.3d at 315 ("In view of the lengthy delay here, in
which [the defendant] quietly acquiesced, this factor weighs heavily against finding a violation of the speedy
trial right.").

4. Prejudice
HN9 "When a court analyzes the prejudice to the defendant, it must do so in light of the defendant's
interests that the speedy-trial right was designed to protect: [*369] (1) to prevent oppressive pretrial
incarceration, (2) to minimize the accused's anxiety and concern, and (3) to limit the possibility that the
accused's defense will be impaired." Cantu, 253 S.W.3d at 285. Of these, the last is the most serious because
the defendant's inability to prepare his case skews the fairness of the entire system. Id. "[E]xcessive delay
presumptively compromises the reliability of a trial in ways that neither party can prove or, for that
matter, [**12] identify." Doggett v. United States, 505 U.S. 647, 655, 112 S. Ct. 2686, 120 L. Ed. 2d 520
(1992). "On the other hand, this 'presumption of prejudice' is 'extenuated . . . by the defendant's
acquiescence' in the delay." Dragoo, 96 S.W.3d at 315 (omission in original) (quoting Doggett, 505 U.S. at
658).
Though the delay is considered presumptively prejudicial to the defense, appellant failed to demonstrate any
prejudice. See id. at 315-16 ("prejudice" factor weighed against violation of defendant's speedy trial right
even though three-and-a-half-year delay was "patently excessive" and "presumptively prejudicial" because
defendant acquiesced in the delay and failed to demonstrate prejudice). Namely, there was only one person of
six total witnesses that was not available to testify at trial. Appellant made no argument that the missing
witness was a material fact witness or that the missing witness could offer testimony that was in any way
different from those of the witnesses that would testify during trial. Appellant's father testified at the hearing
that his memory would have been better had the trial occurred closer to the incident. Appellant did not testify
regarding the effect that the pending charges had on him or the conditions that he had to meet for his bond.
Appellant agreed to multiple resets that delayed trial. The first [**13] assertion of appellant's speedy trial
right was not made until two-weeks before the May 2018 trial setting. Because appellant acquiesced in the
delay and failed to demonstrate prejudice, this factor weighs against a speedy trial violation. See id.; Cantu,
253 S.W.3d at 285 (defendant's testimony regarding ulcer and weekly check-ins with bondsman considered
evidence of "some degree of personal anxiety" but not one of the "major evils protected against by the speedy
trial guarantee").

5. Balancing the Barker Factors
When balanced together, the weight of the four factors falls against concluding that a violation of appellant's
right to a speedy trial occurred. See Barker, 407 U.S. at 534 (where defendant was not seriously prejudiced
by five-year delay between arrest and trial and defendant did not want speedy trial, defendant's Sixth
Amendment right to a speedy trial not violated); Phipps v. State, 630 S.W.2d 942, 946 (Tex. Crim. App. 1982)
(where defendant demonstrated no prejudice by four-year delay between arrest and trial and defendant
waited until one month before trial to assert his right to a speedy trial, defendant's Sixth Amendment right to
a speedy trial not violated); Dragoo, 96 S.W.3d at 316 (where defendant quietly acquiesced in delay from
three-and-a-half-years, showed no prejudice, and failed to assert speedy trial right until just [**14] prior to
trial by requesting dismissal, defendant's Sixth Amendment right to a speedy trial not violated).
We overrule appellant's sole issue.
APPENDIX A

10/30/2020, 4:07 PM

Firefox

6 of 6

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1...

II. CONCLUSION
Having overruled appellant's sole issue, we affirm the judgment of the trial court.
/s/ Ken Wise
Justice
Panel consists of Chief Justice Frost and Justices Wise

and Hassan

.

Do Not Publish — TEX. R. APP. P. 47.2(b).

APPENDIX A

10/30/2020, 4:07 PM

APPENDIX B

APPENDIX B

APPENDIX B

APPENDIX C

Firefox

1 of 2

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1...

In re Stiles, 2020 Tex. Crim. App. LEXIS 575
Copy Citation
Court of Criminal Appeals of Texas
August 19, 2020, Decided
PD-0077-20
Reporter
2020 Tex. Crim. App. LEXIS 575 *

DAVID STILES JR.

Notice: DECISION WITHOUT PUBLISHED OPINION

Prior History: [*1] FROM BURNET COUNTY - 14-18-00619-CR.
Stiles v. State, 596 S.W.3d 361, 2019 Tex. App. LEXIS 11229 (Tex. App. Houston 14th Dist., Dec. 31, 2019)

Opinion
APPELLANT'S PETITION FOR DISCRETIONARY REVIEW REFUSED.

APPENDIX C

11/12/2020, 11:10 AM

